TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Potential Opportunities Exist to Enhance
                       the Favorable Productivity Trends
                           for Audits Initiated by the
                      Updated Return Selection Formulas



                                          August 5, 2009

                              Reference Number: 2009-30-105




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     DEPARTMENT OF THE TREASURY
                                                            WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     August 5, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Potential Opportunities Exist to Enhance the
                                  Favorable Productivity Trends for Audits Initiated by the Updated
                                  Return Selection Formulas (Audit # 200830030)

 This report presents the results of our review to determine the status of using National Research
 Program1 data to select individual returns for examination in the Small Business/Self-Employed
 (SB/SE) Division and the impact the data are having on examination results. The review was
 part of our risk-based audit coverage for Fiscal Year 2008 under the major management
 challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 Fewer examinations initiated by the updated Discriminant Index Function (DIF)2 formulas are
 being closed with no recommended tax changes, which indicates that the Internal Revenue
 Service (IRS) is better focusing its examination resources on returns posing the greatest
 compliance risk and not burdening compliant taxpayers with an examination. SB/SE Division
 statistics also indicate that taxpayers are agreeing with more of the additional taxes
 recommended in examinations initiated by the updated DIF formulas. This is important because
 the additional taxes owed from agreed examinations are far more likely to be collected than those
 that are assessed by default or disputed and appealed through the IRS administrative processes or
 the courts.




 1
     See Appendix IV for a glossary of terms.
 2
     In this report, the term DIF examinations includes returns related to those originally selected for examination.
                           Potential Opportunities Exist to Enhance the
                         Favorable Productivity Trends for Audits Initiated
                            by the Updated Return Selection Formulas



Synopsis
The IRS considers the National Research Program very important, and the SB/SE Division
reflected this priority in the emphasis given to using the updated DIF formulas developed from
National Research Program data to select returns for examination. The updated formulas were
first used to score individual tax returns in Processing Year 2006, and by the end of Fiscal
Year 2008 SB/SE Division statistics show the number of DIF initiated examinations is
increasing, especially among Revenue Agents (RA).
When compared to earlier DIF initiated examinations, SB/SE Division statistics show that
examination productivity continued favorable trends since the updated DIF formulas were
introduced. The combined RA and Tax Compliance Officer results show DIF initiated
examinations are yielding higher recommended additional taxes, both on an hourly and return
basis, and are generating higher examination agreement rates. Statistics also show that the
percentage of no-change examinations has decreased since the updated DIF formulas were
introduced.
While overall examination productivity is trending favorably for DIF initiated examinations, the
results are mixed for those closed by RAs. Before the updated formulas were introduced, DIF
initiated examinations closed by RAs generated more recommended additional taxes and lower
no-change rates for most of the five previous periods analyzed. Comparatively, Tax Compliance
Officer results show higher recommended additional taxes on a return and hourly basis and a
lower no-change rate after the updated DIF formulas were introduced.
The differences noted in the productivity trends between RAs and Tax Compliance Officers
suggest there may be opportunities to improve how effectively returns are screened (i.e., finding
questionable items that need to be audited) once delivered to RA groups in the field. Like
examinations, return screening at the group level is extremely important because RAs and their
managers ultimately decide which DIF selected returns are examined. Unlike controls over
examinations, return screening controls are less formalized and rely heavily on the judgment and
experience of individual RAs and their managers. Neither RAs nor their managers are required
to document the reasons for rejecting (surveying) DIF selected returns. In addition, there is no
feedback process in place to evaluate the quality or appropriateness of the survey decisions.
Since the updated DIF formulas were introduced, RAs and their managers have surveyed
15,483 DIF selected returns after they were delivered to the group. One-third of the surveys
involved returns reporting $200,000 or more of income, which is a segment of the return
population (high-income individuals) where the IRS believes there is a need for more
examination coverage. If controls were strengthened so that survey decisions based on low audit
potential were adequately supported to allow evaluation, the advantages would likely outweigh
the disadvantages.


                                                                                                 2
                           Potential Opportunities Exist to Enhance the
                         Favorable Productivity Trends for Audits Initiated
                            by the Updated Return Selection Formulas


In terms of advantages, the documentation and feedback might identify potential opportunities to
enhance revenue and reduce taxpayer burden by better ensuring that RAs and their managers are,
in fact, only surveying returns with limited or no audit potential and not surveying returns that
should be examined because they pose a high compliance risk. Using the recommended taxes
generated by RAs on a return basis in Processing Year 2006 and constant dollars, we estimate
that even a modest 4 percent reduction in the no-change rate for DIF initiated audits over the
next 5 years would generate an additional $18.7 million in recommended taxes. The no-change
reduction would also eliminate the burden associated with an examination on an estimated
1,341 compliant taxpayers.

Recommendation
To determine the extent that decisions to survey DIF selected returns based on low examination
potential may be affecting examination productivity indicators, we recommended that the
Director, Examination, establish a process, at least on a test basis, to evaluate the quality and
appropriateness of those decisions.

Response
IRS management agreed with our recommendation and will conduct a review of surveyed DIF
returns using a modified Income Tax Survey After Assignment (Form 1900). IRS management
also noted that our recommendation will strengthen the SB/SE Division’s understanding of the
reasons DIF returns are surveyed. Management’s complete response to the draft report is
included as Appendix V.
Copies of this report are also being sent to IRS managers affected by the report recommendation.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




                                                                                                    3
                                    Potential Opportunities Exist to Enhance the
                                  Favorable Productivity Trends for Audits Initiated
                                     by the Updated Return Selection Formulas




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Small Business/Self-Employed Division Is Taking Advantage
          of National Research Program Data to Select Returns for Examination ......Page 3
          The Number of Returns Identified for Examination but Subsequently
          Rejected Due to Low Examination Potential Warrants Closer Scrutiny ......Page 6
                    Recommendation 1:..........................................................Page 9


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Glossary of Terms................................................................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 16
          Potential Opportunities Exist to Enhance the
        Favorable Productivity Trends for Audits Initiated
           by the Updated Return Selection Formulas




                 Abbreviations

AIMS       Audit Information Management System
DIF        Discriminant Index Function
FY         Fiscal Year
IRS        Internal Revenue Service
NRP        National Research Program
PY         Processing Year
RA         Revenue Agent
SB/SE      Small Business/Self-Employed Division
TCO        Tax Compliance Officer
                             Potential Opportunities Exist to Enhance the
                           Favorable Productivity Trends for Audits Initiated
                              by the Updated Return Selection Formulas




                                         Background

The Internal Revenue Service (IRS) established the
                                                                The first NRP study produced
National Research Program1 (NRP) in 2000 to resume              critical data that were used to
measuring taxpayers’ voluntary compliance, better              update IRS screening formulas
approximate the tax gap, and develop updated formulas          that select likely noncompliant
to select noncompliant returns for examination. In                 individual tax returns for
                                                                          examination.
previous years, the IRS gathered taxpayer compliance
data through Taxpayer Compliance Measurement
Program examinations. However, many external stakeholders, including Congress and taxpayer
representative associations, believed that the Taxpayer Compliance Measurement Program,
which included a line-by-line examination of each item on a tax return, was too intensive and a
significant burden on the taxpayers with returns selected for the program. The last Taxpayer
Compliance Measurement Program examinations for individual taxpayers were conducted using
tax returns filed in 1988.
Since its inception, the NRP has strived to minimize the burden on the taxpayers selected for its
studies. To meet this objective, NRP personnel accessed the IRS’ automated information
systems to collect and analyze IRS and third-party information before making contact with
taxpayers. This case building process enables the IRS to obtain a more complete picture of a
taxpayer’s financial situation and limit the information that must be requested from taxpayers
once contact is initiated. According to a Government Accountability Office report,2 the IRS was
carrying out the initial NRP study in accordance with plans formalized in 2002. The plans
included identifying and training more than 3,000 examiners and establishing quality assurance
checks to help ensure consistent and accurate data collection.
The NRP completed the study of individual reporting compliance in 2006 and released an initial
tax gap estimate based on reviewing about 46,000 randomly selected Tax Year 2001 individual
tax returns. According to the NRP estimate, the annual tax gap was $345 billion and the largest
identified portion of the gap ($197 billion, or 57 percent) was attributed to individuals
underreporting their income. Besides the updated tax gap estimate, the NRP study also produced
critical data that were used to update the Discriminant Index Function (DIF) formulas to help
close the $197 billion tax gap attributed to individual underreporting.
The DIF formulas are used to calculate and assign a DIF score for all individual returns based on
their examination potential. The higher the score, the greater the chance an examination will

1
 See Appendix IV for a glossary of terms.
2
 Tax Administration: IRS Is Implementing the National Research Program as Planned (GAO-03-614, dated
June 2003).
                                                                                                   Page 1
                           Potential Opportunities Exist to Enhance the
                         Favorable Productivity Trends for Audits Initiated
                            by the Updated Return Selection Formulas



result in a material tax change. After the DIF assigns a score, the returns with the highest scores
are evaluated by classifiers. These classifiers, who are experienced examiners, determine which
returns are most in need of examination and, through examination, will promote the highest
degree of voluntary compliance. In some instances, they may also select the issues to be covered
during the examination.
Once the decision is made that an examination is warranted, the returns are forwarded to either a
Revenue Agent (RA) or Tax Compliance Officer (TCO) based on the type of return and issues
involved. In general, RAs conduct examinations involving more complex issues related to
business individuals and of individuals with higher income levels. After being received in the
group, the return is screened again by the group manager and either an RA or TCO. During this
final screening, an examination is initiated or the return is eliminated from the DIF selected audit
stream.
This review was performed in the IRS Small Business/Self-Employed (SB/SE) Division
Headquarters Office in New Carrollton, Maryland, and at the IRS Office of Research, Analysis,
and Statistics in Washington, D.C., during the period April 2008 through January 2009. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Detailed information on our audit
objectives, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                             Page 2
                                   Potential Opportunities Exist to Enhance the
                                 Favorable Productivity Trends for Audits Initiated
                                    by the Updated Return Selection Formulas




                                          Results of Review

Overall, statistics in the SB/SE Division show that examination productivity is improving for
individual returns selected by the updated DIF formulas. However, the number of returns that
the DIF is identifying for examination but are subsequently rejected due to low examination
potential warrants closer scrutiny.

The Small Business/Self-Employed Division Is Taking Advantage of
National Research Program Data to Select Returns for Examination
The IRS considers the NRP very important, and the SB/SE Division reflected this priority in the
emphasis given to using the updated DIF formulas developed from NRP data to select returns for
examination. The updated formulas were first used to score individual tax returns in Processing
Year (PY) 2006, and by the end of Fiscal Year (FY) 2008 SB/SE Division statistics show the
number of DIF initiated examinations3 conducted by RAs is increasing. Although the number of
RAs remained about the same, Figure 1 shows there was a considerable increase (49 percent)
from FY 2007 to 2008 in the number of RA examinations initiated by DIF as well as an overall
increase in the number of examinations closed in FY 2008.
        Figure 1: SB/SE Division’s Individual Tax Return Examination Closures in
                                   FYs 2007 and 2008

                            RA                  RA                TCO                TCO
          FY            DIF Initiated          Other*          DIF Initiated        Other*    Totals
         2007                27,945             69,784             53,889            72,088   223,706

         2008                41,644             72,012             61,658            67,229   242,543

        Totals               69,589            141,796            115,547           139,317   466,249

* Other: Examinations can be initiated from a variety of sources including potentially abusive transactions,
studies/research projects, and third-party document matching.
Source: Our analysis of closed examination data from the IRS Audit Information Management System (AIMS) for
FYs 2007 and 2008.

SB/SE Division statistics additionally indicate that taxpayers agreed with more of the additional
taxes recommended in examinations initiated by the updated DIF formulas. In FY 2008, the
number of agreed DIF initiated examinations increased 76 percent from a comparable period
ending in FY 2005. From a revenue collection perspective, this is important because the


3
    In this report, the term DIF initiated examinations includes related returns.
                                                                                                        Page 3
                               Potential Opportunities Exist to Enhance the
                             Favorable Productivity Trends for Audits Initiated
                                by the Updated Return Selection Formulas



additional taxes owed from agreed examinations are far more likely to be collected than those
that are either assessed by default or disputed and appealed through the IRS administrative
processes or the courts. To illustrate, we evaluated the collections from a random sample of
30 closed examinations for which the taxpayers agreed with the results (agreed assessments) and
30 examinations for which the taxes were assessed by default during FY 2004. Our evaluation,
summarized in Figure 2, shows that even though more than 200 percent more taxes were owed
from the defaulted assessments, the agreed assessments produced 184 percent more revenue.
Figure 2 additionally shows that almost all (99.8 percent) of the additional taxes, penalties, and
interest recommended in the agreed examinations have been collected, while the vast majority
(75 percent) of the taxes, penalties, and interest owed from the defaulted examinations remains
outstanding.
   Figure 2: Comparison Between the Amount of Assessments Collected From
       FY 2004 Agreed and Defaulted Examinations Through March 1, 2009

 Type of                  Number of               Total                Total      Percentage
 Closure                 Examinations            Assessed             Collected    Collected
 Agreed                       30               $438,123.88          $437,117.08      99.8
 Default                      30               $949,753.06          $237,237.34      25.0
Source: Our analyses of random pilot samples of agreed and default cases.

Besides finding the SB/SE Division is conducting more DIF initiated examinations and obtaining
more agreements, our comparative analysis shows key examination productivity indicators are
trending favorably since the updated DIF formulas were introduced. When compared to earlier
DIF initiated examinations, RA and TCO combined results show that under the updated
formulas, DIF initiated examinations are yielding higher recommended additional taxes, both on
an hourly and return basis, and are resulting in fewer closures with no recommended tax changes
(no-change examinations).

Overall, productivity indicators are trending favorably for DIF initiated
examinations
It is important to note that the periods included in our comparative analysis are based on
PYs 2001 through 2006 and the 2 succeeding fiscal years for each processing year when the
examinations were completed and the results recorded in the IRS AIMS. We conducted our
analysis in this manner to present a fair and meaningful comparison because at the time of our
review only 2 fiscal years (2007 and 2008) of examinations had been completed after the
updated formulas were implemented in PY 2006. Consequently, examinations open longer than
the 2 fiscal years following the year in which the examined tax return was processed are not
included in our analysis. We also believe it is important to recognize that, due to various other
ongoing initiatives that the SB/SE Division has implemented to enhance the examination
process, we were unable to isolate the impact on examination productivity from the updated
                                                                                               Page 4
                                             Potential Opportunities Exist to Enhance the
                                           Favorable Productivity Trends for Audits Initiated
                                              by the Updated Return Selection Formulas



formulas with any degree of preciseness. These initiatives included an increased emphasis on
limiting the scope of examinations to just the issues posing the greatest compliance risk and
using a fast track settlement process to resolve disputes.
One measure of examination productivity is the amount of additional taxes recommended for
each return examined. Overall, we found that the recommended additional taxes on a return
basis continued to increase for DIF initiated examinations after the updated formulas were
introduced in PY 2006. As Figure 3 shows, the recommended additional taxes increased
72 percent from a low of $4,753 in PY 2003 to $8,193 in PY 2006. Our analysis also shows that
RA examinations resulted in as much as two to three times more additional tax recommended per
return than those conducted by TCOs. A factor likely contributing to the difference is the types
of returns the examiners generally are assigned to examine. In general, RAs conduct more
examinations of business individuals and of individuals with higher income levels. Typically,
examinations of business individuals and those at higher income levels result in higher additional
recommended taxes per return than examinations of nonbusiness individuals and those at lower
income levels.
          Figure 3: Additional Taxes Recommended by RAs and TCOs Per Return
                                for PYs 2001 Through 2006
    Recommended Dollars per




                              $10,000
                                                                                                           $8,193
         Closed Return




                               $8,000
                                                                                               $7,051
                               $6,000      $5,845
                                                       $5,262      $4,753          $5,122
                               $4,000
                               $2,000
                                  $0
                                        2001        2002        2003         2004           2005        2006
                                                                 Processing Year


 Source: Our analysis of closed examination data for PYs 2001 through 2006 returns from the IRS AIMS for
 FYs 2002 through 2008.

Two other examination productivity indicators are the amount of additional taxes recommended
for each direct examination hour used to examine the return and the percentage of examinations
closed as a no-change. Concerning the amount of additional taxes recommended for each direct
examination hour used to examine the return, we found the examinations initiated under the
updated DIF formulas resulted, on average, in a modest increase of about 11 percent more
additional recommended taxes than the DIF examinations closed in earlier periods. Additionally,
there was a decline in the percentage of no-change examinations initiated under the new
formulas, as reflected in Figure 4. The reduction in the percentage of no-change examinations is
notable because it indicates that the IRS is better focusing its examination resources on returns


                                                                                                               Page 5
                                              Potential Opportunities Exist to Enhance the
                                            Favorable Productivity Trends for Audits Initiated
                                               by the Updated Return Selection Formulas



posing the greatest compliance risk and not burdening as many compliant taxpayers with an
examination.
                 Figure 4: Combined Percentage of RA and TCO DIF Initiated No-Change
                               Examinations in PYs 2001 Through 2006
   Percentage of No-Change




                             20%
                                      18%
                             15%                                                15%      14%
           Returns




                                                    13%        12%                                    13%
                             10%

                             5%

                             0%
                                   2001          2002       2003           2004       2005         2006
                                                              Processing Year


Source: Our analysis of closed examination data for PYs 2001 through 2006 returns from the IRS AIMS for
FYs 2001 through 2008.

While overall examination productivity is trending favorably for DIF initiated examinations, the
results are mixed for those closed by RAs. In most of the 5 processing years before the updated
formulas were introduced, DIF initiated examinations closed by RAs generated more
recommended additional taxes and had lower no-change rates.

The Number of Returns Identified for Examination but Subsequently
Rejected Due to Low Examination Potential Warrants Closer Scrutiny
In 4 of the 5 processing years (2001 through 2005) before the updated DIF formulas were
introduced, our comparative analysis shows the DIF initiated examinations closed by RAs
generated higher recommended additional taxes on an hourly and return basis than those
examinations after the DIF formulas were updated. We also found the RA no-change rate was
lower in 3 of the 5 processing years before the updated formulas were introduced.
Comparatively, TCO results are trending more favorably. Their recommended additional taxes
on a return and hourly basis were higher and no-change rate lower after the updated DIF
formulas were introduced in PY 2006. Figure 5 summarizes the RA and TCO recommended
additional taxes and no-change rates in PYs 2001 through 2006.




                                                                                                          Page 6
                                Potential Opportunities Exist to Enhance the
                              Favorable Productivity Trends for Audits Initiated
                                 by the Updated Return Selection Formulas



  Figure 5: RA and TCO Recommended Additional Taxes and No-Change Rates
            From DIF Initiated Examinations in PYs 2001 Through 2006

                               Revenue Agent                             Tax Compliance Officer
 Processing     Dollars per      Dollars per    No-Change       Dollars per     Dollars per   No-Change
   Year           Hour            Return           Rate           Hour           Return        Rate
    2001           436             15,724          15 %           395                3,851         19 %
    2002           683             17,552           7%            395                3,996         14 %

    2003           508             15,083          15 %           415                4,114         12 %

    2004           310             10,648          25 %           435                3,881         13 %

    2005           440             14,322          22 %           513                4,417         11 %

    2006           420             13,654          19 %           594                5,130          9%

   Average
 for All PYs       423             13,863          19 %           458                4,254         13 %

Source: Our analysis of closed examination data for PYs 2001 through 2006 returns from the IRS AIMS for
FYs 2002 through 2008.

The differences noted in the productivity trends between RAs and TCOs suggest there may be
opportunities to improve how RAs are examining the returns and/or how effectively returns are
screened (i.e., finding questionable items that need to be examined) once delivered to RA groups
in the field. Although we did not review case files to evaluate the quality of examinations
conducted by either RAs or TCOs, the SB/SE Division has controls in place that are designed to
ensure examinations are meeting standards and potential problems with the technical aspects of
examinations are identified so corrective actions can be initiated.
One control used by the SB/SE Division to measure how well examiners are meeting the
technical and procedural aspects of examinations is the National Quality Review System. Under
this system, examiners are required to fully document examination case files showing the issues
considered and the decision process followed in reaching conclusions. From a control
perspective, this documentation is critical because it provides the principal support for the
decisions made about how much, if any, additional taxes are owed by the taxpayer. The
documentation is also used by National Quality Review System reviewers as the basis for
evaluating samples of closed examinations against auditing standards and advising management
of potential problems so needed corrective actions can be taken.
Like examinations, return screening at the group level is extremely important because RAs and
their managers ultimately decide which DIF selected returns are examined. Consequently,
selecting returns for examination that pose little or no compliance risk can have a direct adverse


                                                                                                          Page 7
                                  Potential Opportunities Exist to Enhance the
                                Favorable Productivity Trends for Audits Initiated
                                   by the Updated Return Selection Formulas



effect on the amount of recommended additional taxes, no-change rates, and taxpayer burden,
regardless of how well the technical and procedural aspects of the examinations are performed.
Unlike controls over examinations, return screening controls are less formalized and rely heavily
on the judgment and experience of individual RAs and their managers. Although RAs and their
managers can reject (survey) a DIF selected return for a number of reasons, neither are required
to document the reason for the survey. For example, RAs and their managers can survey a return
to avoid repetitively auditing the same taxpayer. They can also survey a return because they
believe it has limited audit potential, even though the DIF formulas and a classifier have
indicated otherwise. Besides limited documentation, there is no feedback process in place to
evaluate the quality or appropriateness of the survey decisions. The reliance on judgment and
experience when combined with the absence of a feedback process can be particularly
problematic in today’s environment because the IRS is increasingly hiring new RAs and
promoting others as new managers to replace the growing loss of experienced RAs and managers
to retirement.
Since the updated DIF formulas were introduced, SB/SE Division statistics show RAs and their
managers have surveyed 15,483 DIF selected returns due to limited examination potential. As
Figure 6 shows, one-third of the surveys involved returns reporting $200,000 or more of income,
which is a segment of the return population (high-income individuals) the IRS believes needs
more examination coverage. We believe that if controls were established so that survey
decisions based on low examination potential were adequately supported to allow evaluation, the
advantages would likely outweigh the disadvantages.
          Figure 6: Individual Returns Selected by the Updated DIF Formulas
        in PYs 2006 through 2008 and Subsequently Surveyed at the RA Group
                        Level Due to Low Examination Potential

                                                                              RA      Manager    Total
                            Types of Returns                                Surveys   Surveys   Surveys
 Nonbusiness – Total Positive Income less than $200,000.                      132       202        334
 Business – Total Positive Income less than $200,000                        3,423      6,443     9,866

              Subtotal - Total Positive Income less than $200,000           3,555      6,645    10,200
 Nonbusiness – Total Positive Income of $200,000 but less than $1 million     158       286        444
 Business – Total Positive Income of $200,000 but less than $1 million.     1,345      1,895     3,240
 Nonbusiness and Business – Total Positive Income of $1 million or more       881       718      1,599

            Subtotal – Total Positive Income greater than $200,000          2,384      2,899     5,283

                                Grand Total                                 5,939      9,544    15,483

Source: Our analysis of closed nonexamined return data for PYs 2006 through 2008 returns from the IRS AIMS for
FYs 2006 through 2008.

                                                                                                         Page 8
                           Potential Opportunities Exist to Enhance the
                         Favorable Productivity Trends for Audits Initiated
                            by the Updated Return Selection Formulas



In terms of advantages, the documentation and feedback might identify potential opportunities to
enhance revenue and reduce taxpayer burden by better ensuring that RAs and their managers are,
in fact, only surveying returns with limited or no audit potential and not surveying returns that
should be examined because they pose a high compliance risk. Using the recommended taxes
generated by RAs on a return basis in PY 2006 and constant dollars, we estimate that even a
modest 4 percent reduction in the no-change rate for DIF initiated examinations over the next
5 years would generate an additional $18.7 million in recommended taxes. The no-change
reduction would also eliminate the burden associated with an examination on an estimated
1,341 compliant taxpayers. Moreover, having the documentation and a feedback process in
place would be in line with the Federal Government’s control standards, which require
establishing controls to provide assurances that work is carried out in accordance with the intent
of policies and procedures management has in place.
The primary disadvantages involve the time spent documenting the support for the survey
decision and evaluating the appropriateness of the decision in relation to the support provided.
While we do not have specific evidence to support this position, we believe the time and
resources spent documenting and evaluating survey decisions could be mitigated by expanding
on existing work practices. Moreover, the documentation and evaluation could be limited to a
test period and involve only certain types of DIF selected returns, such as those involving
high-income individuals.
According to the IRS procedures, RAs and managers already consider such factors as
compliance risk, materiality, and potential dollar yields in deciding to survey DIF selected
returns based on examination potential. Consequently, the documentation could be limited to
recording the factors considered and conclusions reached on the existing Income Tax Survey
After Assignment (Form 1900). Currently, the Form 1900 is mandatory for surveying some
top-priority returns, such as returns included in NRP compliance studies, and is forwarded to
SB/SE Division’s Planning and Special Procedures Office where the survey decision is reviewed
against established criteria.

Recommendation
Recommendation 1: To determine the extent that survey decisions based on low examination
potential may be affecting examination productivity indicators, we recommend that the Director,
Examination, establish a process, at least on a test basis, to evaluate the quality and
appropriateness of the survey decisions made by RAs and their managers on DIF selected returns
so that corrective actions, if needed, can be identified and taken.
       Management’s Response: IRS management agreed with our recommendation and
       will conduct a review of surveyed DIF returns using a modified Form 1900 that includes
       a listing of common reasons returns are surveyed. Based upon the results of the review,
       the SB/SE Division will take appropriate actions. IRS management also noted that our

                                                                                           Page 9
                  Potential Opportunities Exist to Enhance the
                Favorable Productivity Trends for Audits Initiated
                   by the Updated Return Selection Formulas



recommendation will strengthen the SB/SE Division’s understanding of the reasons DIF
returns are surveyed.




                                                                              Page 10
                               Potential Opportunities Exist to Enhance the
                             Favorable Productivity Trends for Audits Initiated
                                by the Updated Return Selection Formulas



                                                                                        Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine the status of using NRP1 data to select
individual returns for examination in the SB/SE Division and the impact the data are having on
examination results. During the review, we relied on databases provided to us by the IRS. We
did not conduct audit tests to determine the accuracy and reliability of the information in any of
the databases. However, we did assess the completeness of the data as described below and
concluded the data were reliable and adequate to conduct our work. To accomplish our
objectives, we:
I.      Reviewed Government Accountability Office and Treasury Inspector General for Tax
        Administration reviews on NRP planning and implementation efforts, NRP newsletters,
        and SB/SE Division Strategic Plans for FYs 2008-2009 to gain an understanding of the
        history and current status of the NRP.
II.     Interviewed NRP officials on the process used to measure the performance of DIF and
        Examination function officials on the return survey process.
III.    Analyzed IRS closed examination data for FYs 2007 and 2008 from AIMS relating to
        PY 2006 DIF identified and related returns. The analysis focused on 1) no-change rate
        for returns examined, 2) dollars recommended per examination hour, and 3) dollars
        recommended per return examined.
IV.     Reviewed a random sample2 of 30 agreed examination cases selected from a population
        of 25,464 cases shown as closed in FY 2004 on AIMS to determine the amount of
        assessed taxes as a result of the examination and the amount of taxes collected. We also
        reviewed a random sample3 of 30 unagreed examination cases selected from a population
        of 3,257 cases shown as closed in FY 2004 on AIMS to determine the amount of assessed
        taxes as a result of the examination and the amount of taxes collected. We compared the
        amounts of assessed taxes and collected taxes for both samples.
V.      Determined if examinations of PY 2006 computer-identified and related returns scored
        by the revised DIF formulas were more productive than the PYs 2001 to 2005 returns
        scored by the prior DIF formulas by analyzing FYs 2002 to 2007 closed AIMS data and
        focusing on 1) no-change rate for returns examined, 2) dollars recommended per
        examination hour, and 3) dollars recommended per return examined.

1
  See Appendix IV for a glossary of terms.
2
  A random sample was used to ensure that each case had an equal chance of selection.
3
  A random sample was used to ensure that each case had an equal chance of selection.
                                                                                            Page 11
                          Potential Opportunities Exist to Enhance the
                        Favorable Productivity Trends for Audits Initiated
                           by the Updated Return Selection Formulas



VI.     Analyzed data on surveyed returns, including determining the number of returns with
        $200,000 or more in total positive income surveyed by managers and surveyed by
        examiners for PYs 2006 through 2008 using AIMS data from FYs 2006 through 2008 for
        returns closed and not examined by the IRS.
VII.    Assessed the methods used by the IRS National Headquarters Research function and the
        SB/SE Division Research function to measure the effectiveness of the revised DIF
        formulas using the Government Accountability Office’s Standards for Internal Control in
        the Federal Government.
VIII.   Assessed the completeness of the closed AIMS data used to complete the above
        objectives.
        A. Reconciled the closed AIMS data for FYs 2002 through 2008 with the appropriate
           Table 37 Reports.
        B. Reconciled the closed AIMS and survey data with Master File data.




                                                                                       Page 12
                         Potential Opportunities Exist to Enhance the
                       Favorable Productivity Trends for Audits Initiated
                          by the Updated Return Selection Formulas



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Robert Jenness, Audit Manager
Lisa Stoy, Audit Manager
William Tran, Lead Auditor
Timothy Greiner, Senior Auditor
David Hartman, Senior Auditor




                                                                                      Page 13
                        Potential Opportunities Exist to Enhance the
                      Favorable Productivity Trends for Audits Initiated
                         by the Updated Return Selection Formulas



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, National Research Program RAS:NRP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                Page 14
                           Potential Opportunities Exist to Enhance the
                         Favorable Productivity Trends for Audits Initiated
                            by the Updated Return Selection Formulas



                                                                                Appendix IV

                                Glossary of Terms

Audit Information Management System – A system that the IRS Examination function uses to
control returns, input assessments and adjustments to the Master File, and provide management
reports.
Discriminant Index Function – Mathematical formulas used by the IRS to calculate and assign
a score for all individual returns based on their examination potential.
Fiscal Year – The IRS’ Fiscal Year is a 12-month period which runs from October 1 to the
following September 30.
Master File – IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
National Research Program – Research conducted by the IRS to determine filing, payment,
and reporting compliance by taxpayers for different types of taxes. The IRS established the
program in the year 2000 to resume measuring taxpayers’ voluntary compliance.
National Quality Review System – The SB/SE Division conducts case reviews from individual
audits. The data collected from the reviews are input to the system for analysis on how well
examiners are meeting the technical and procedural aspects of examinations.
Processing Year – The calendar year in which a tax return is processed.
Revenue Agents – Conduct examinations involving more complex issues related to business
individuals and individuals with higher income levels.
Taxpayer Compliance Measurement Program – The IRS’ method of data collection that
audits every line on tax returns for a random sample of taxpayers.
Tax Compliance Officers – Conduct examinations on individuals’ nonbusiness related, sole
proprietorships, and individuals with business and other supplemental income.
Tax Year – Annual accounting period taxpayers use to keep records and report income and
expenses on their tax returns. For individuals, it is usually the same as the calendar year.
Total Positive Income – Calculated using only positive income values from specific income
fields from a tax return and treating losses as zero.




                                                                                         Page 15
          Potential Opportunities Exist to Enhance the
        Favorable Productivity Trends for Audits Initiated
           by the Updated Return Selection Formulas



                                                     Appendix V

Management’s Response to the Draft Report




                                                             Page 16
  Potential Opportunities Exist to Enhance the
Favorable Productivity Trends for Audits Initiated
   by the Updated Return Selection Formulas




                                                     Page 17
